      Department of Homeland Security





            Connecticut’s Management of Homeland 

            Security Program Grants Awarded During 

                Fiscal Years 2008 Through 2010 





OIG-13-43                                     February 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      FEB 28 2013

MEMORANDUM FOR: 	            David J. Kaufman
                             Acting Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        	Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT: 	                   Connecticut’s Management of Homeland Security Program
                             Grants Awarded During Fiscal Years 2008 Through 2010

Attached for your action is our final report, Connecticut’s Management of Homeland
Security Program Grants Awarded During Fiscal Years 2008 Through 2010. We
incorporated the formal comments from the Federal Emergency Management Agency
and the State of Connecticut in the final report.

The report contains two recommendations aimed at improving the State of Connecticut’s
management of State Homeland Security Program and Urban Areas Security Initiative
Grants. Your office concurred with the two recommendations. Based on information
provided in your response to the draft report, we consider the recommendations open
and resolved. Once your office has fully implemented the recommendations, please
submit a formal closeout letter to us within 30 days so that we may close the
recommendations. The memorandum should be accompanied by evidence of
completion of agreed-upon corrective actions and of the disposition of any monetary
amounts.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


Table of Contents


Executive Summary ............................................................................................................ 1 



Background ........................................................................................................................ 2 



Results of Audit .................................................................................................................. 2 



       The State of Connecticut’s Grant Management Practices ..................................... 2 

        

       Subgrantee Monitoring ........................................................................................... 3 

       Recommendation ................................................................................................... 5 

       Management Comments and OIG Analysis ........................................................... 6 

        

       Timeliness of Grant Fund Obligations ..................................................................... 6 

       Recommendation ................................................................................................... 9 

       Management Comments and OIG Analysis ........................................................... 9 

        

Appendixes


           Appendix A:           Objectives, Scope, and Methodology ........................................... 10 

           Appendix B:           Management Comments to the Draft Report .............................. 13 

           Appendix C:           State of Connecticut’s Management Comments for the 

                                 Draft Report .................................................................................. 15 

           Appendix D:           Subgrantee SHSP and UASI Grant Obligations.............................. 17 

           Appendix E:           Regional Map of Connecticut........................................................ 21 

           Appendix F:           Homeland Security Grant Programs ............................................. 22 

           Appendix G:           Major Contributors to This Report ............................................... 23 

           Appendix H:           Report Distribution ....................................................................... 24 

           

           

           

           

           

           

           

           




www.oig.dhs.gov                                                                                                        OIG-13-43
                                                                   

                                                                   

                    OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security


Abbreviations
       CFR        Code of Federal Regulations
       DHS        Department of Homeland Security
       DEMHS      Division of Emergency Management and Homeland Security
       DESPP      Department of Emergency Services and Public Protection
       FEMA       Federal Emergency Management Agency
       FY         fiscal year
       GPD        Grant Programs Directorate
       HSGP       Homeland Security Grant Program
       MOA        memorandum of agreement
       OIG        Office of Inspector General
       OMB        Office of Management and Budget
       SAA        State Administrative Agency
       SHSP       State Homeland Security Program
       UASI       Urban Areas Security Initiative




www.oig.dhs.gov                                                      OIG-13-43
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, requires the Department of Homeland Security (DHS), Office of Inspector General
   (OIG) to audit individual States’ management of State Homeland Security Program and
   Urban Areas Security Initiative grants. This report responds to the reporting
   requirement for the State of Connecticut.

   The objectives of the audit were to determine whether the State of Connecticut
   distributed and spent State Homeland Security Program and Urban Areas Security
   Initiative grant funds effectively and efficiently and in compliance with applicable
   Federal laws and regulations and complied with the Department’s guidelines governing
   the use of funding. We also addressed the extent to which funds awarded enhanced
   the State’s ability to prevent, prepare for, protect against, and respond to natural
   disasters, acts of terrorism, and other manmade disasters. The State received grant
   awards of approximately $43.9 million in State Homeland Security Program and Urban
   Areas Security Initiative grants for fiscal years 2008 through 2010.

   In most instances, the State administered grant program requirements effectively and
   efficiently and in compliance with grant guidance and regulations. The State’s strategic
   plans linked goals and objectives to national priorities and DHS mission areas. Adequate
   controls existed over the approval of expenditures and reimbursement of funds.

   However, the State can improve its subgrantee monitoring activities and timeliness of
   grant fund obligations. We made two recommendations to the Federal Emergency
   Management Agency (FEMA) that, if implemented, should strengthen program
   management, performance, and oversight. Both FEMA and the State of Connecticut
   concurred with our recommendations and are in the process of taking corrective
   actions.




www.oig.dhs.gov                               1                                      OIG-13-43
                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help State and local agencies enhance capabilities to prevent, deter, respond to, and
   recover from terrorist attacks, major disasters, and other emergencies. (See appendix F
   for additional details regarding the HSGP.)

   The governor of the State of Connecticut (State) designated the Connecticut Department
   of Emergency Services and Public Protection (DESPP) as the State Administrative Agency
   (SAA). Within the DESPP, the Division of Emergency Management and Homeland
   Security (DEMHS) administers grants. The SAA is responsible for managing the grant
   programs in accordance with established Federal guidelines and allocating funds to
   local, regional, and other State government agencies. The SAA subawarded the HSGP
   funds to two urban areas (Bridgeport and Hartford), five regions, and various State
   agencies. (See appendix E for a regional map of Connecticut.)

   The State received grant awards of approximately $45.5 million for the HSGP during
   fiscal years (FYs) 2008, 2009, and 2010. This included approximately $28.8 million in
   State Homeland Security Program (SHSP) funds and approximately $15.1 million in
   Urban Areas Security Initiative (UASI) grant funds. Appendix A provides details on the
   purpose, scope, and methodology for this audit.

   Results of Audit
           The State of Connecticut’s Grant Management Practices

           In most instances, the State did an effective job of administering grant program
           requirements in accordance with grant guidance and regulations. The State
           developed written procedures for program administration, linked its Homeland
           Security Strategic Plan goals and objectives to the national priorities and DHS
           mission areas, and allocated and spent funds based on national and State
           priorities. The State also had adequate controls over the approval of
           expenditures and reimbursement of funds.

           However, the following improvements will enhance Connecticut’s grant
           management practices:

           •      Strengthen subgrantee monitoring.
           •      Obligate grant funds timely.


www.oig.dhs.gov                                 2                                      OIG-13-43
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Subgrantee Monitoring 


           The SAA did not conduct onsite monitoring visits to SHSP and UASI grant
           recipients for FYs 2008 and 2009 grant awards. Because of the State’s recent
           distribution of FY 2010 grant awards, sufficient monitoring data were not
           available for FY 2010 grant funds awards. In lieu of site visits for FYs 2008 and
           2009, the SAA performed a small percentage of desk monitoring for its SHSP and
           UASI subgrantees. As table 1 shows, the SAA performed desk monitoring
           for about 7 percent of its FY 2008 and 13 percent of FY 2009 UASI and SHSP
           subgrantees.

           Table 1. FYs 2008 Through 2010 Subgrantee Monitoring as of July 2012
                                    SHSP and UASI Subgrantees Monitored
                                           FYs 2008 Through 2010
                                               FY 2008         FY 2009
                      Program                                              FY 2010 Grant Awards
                                            Subgrantees      Subgrantees
                                                                             Monitoring Data
           SHSP and UASI                         30               31
                                                                              Unavailable
                                                                             Monitoring Data
           Subgrantees onsite monitored           0                0
                                                                              Unavailable
                                                                             Monitoring Data
           Subgrantees desk monitored             2                4
                                                                              Unavailable
           Subgrantees monitored resulting
                                                                             Monitoring Data
           from a cash advance or                 1                3
                                                                              Unavailable
           reimbursement request
           Percentage of subgrantees                                         Monitoring Data
                                                 7%               13%
           monitored                                                          Unavailable

           Source: DHS OIG, compiled from SAA source documents.

           The Code of Federal Regulations, Office of Management and Budget (OMB),
           FEMA, and the SAA have specific guidance on grantee monitoring requirements.

           •	 Code of Federal Regulations (CFR) Title 44 §13.40, MonitoringfandfReportingf
              ProgramfPerformance: Grantees are responsible for managing the day-to­
              day operations of grant- and subgrant-supported activities and ensuring that
              grant recipients comply with applicable Federal requirements and achieve
              program performance goals. This regulation also specifies that grantees’
              monitoring programs must cover each program, function, or activity.

           •	 OMB Circular A-133, AuditsfoffStates,fLocalfGovernments,fandfNon-profitf
              Organizations, Compliance Supplement, Part 3-M: Grantees are responsible
              for monitoring subgrantee use of Federal awards through reporting, site

www.oig.dhs.gov                                   3                                  	     OIG-13-43
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                  visits, regular contact, or other means. Grantee monitoring should provide
                  reasonable assurance that the subgrantee administers Federal awards in
                  compliance with laws and regulations, as well as the provisions of contracts
                  or grant agreements.

           •	 FEMA, HomelandfSecurityfGrantfProgramfGuidancefandfApplicationfKit:
              Grant recipients are responsible for monitoring award activities, including
              subawards, to provide reasonable assurance that the Federal award is
              administered in compliance with requirements.

           •	 SAA,fSubrecipientfGrantfManagementfandfMonitoringfProcedures: The SAA
              is responsible for conducting onsite monitoring visits for 10 percent of all
              subrecipients each fiscal year and conducting office-based desk monitoring
              reviews for 25 percent of the HSGP subgrantees.

           In addition to the guidance listed above, FEMA noted deficiencies with the SAA’s
           limited subgrantee monitoring. During a financial monitoring visit in June 2010,
           FEMA determined that the SAA did not adequately monitor subrecipients and
           recommended that it develop and implement a subgrantee monitoring plan that
           included both routine desk reviews and onsite financial monitoring.

           SAA officials are aware of this matter and discussed the need for improved
           subgrantee monitoring. One SAA official expressed concern that the State does
           not have assurance that equipment procured with grant funds is maintained and
           functioning properly because of limited onsite monitoring. Another SAA official
           discussed the need for improved desk monitoring to include all subgrantees, not
           just those submitting cash advance or reimbursement requests.

           SAA officials said that their review of cash advance and cash reimbursement
           requests and quarterly progress and financial reports provides the SAA with a
           mechanism to monitor subgrantees for potential performance or financial issues.
           However, this type of review does not provide the SAA with the firsthand
           knowledge obtained through onsite monitoring visits or sufficient oversight of
           the SHSP and UASI subgrantee awards. As of July 2012, SAA personnel had not
           monitored about $12.5 million, or 61 percent, of FYs 2008 and 2009 UASI and
           SHSP grant subawards (see table 2).




www.oig.dhs.gov                                   4                                  	    OIG-13-43
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Table 2. FYs 2008 Through 2010 Grant Subawards Monitored as of July 2012

                                     SHSP and UASI Subgrantees Monitored
                                            FYs 2008 Through 2010
                                               FY 2008 Grant     FY 2009 Grant   FY 2010 Grant
                        Program
                                                Subawards         Subawards       Subawards*
                                                                                 Monitoring Data
            SHSP and UASI                        $9,439,924       $11,043,309
                                                                                  Unavailable
            Grant funds monitored through                                        Monitoring Data
                                                      None           None
            onsite monitoring                                                     Unavailable
                                                                                 Monitoring Data
            Grant funds desk monitored           $2,872,595        $5,074,990
                                                                                  Unavailable

            Unmonitored SHSP and UASI                                            Monitoring Data
                                                 $6,567,329        $5,968,319
   f
       grant funds                                                           Unavailable
           f
           Source: DHS OIG, compiled from FEMA and SAA source documents.

           As a result of the limited monitoring, the SAA did not fully evaluate whether the
           State spent funds in compliance with grant requirements and associated Federal
           and State regulations. Implementing a monitoring plan for all subgrantees
           through periodic onsite visits and office-based desk monitoring would address
           this problem and provide the SAA with firsthand knowledge of the subgrantees’
           use of SHSP and UASI grant funds. It would also ensure that the SAA monitors all
           subgrantees, not just those submitting cash reimbursement or cash advance
           requests.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate
           (GPD):

           Recommendation #1:

           Require the Connecticut Department of Emergency Services and Public
           Protection’s Division of Emergency Management and Homeland Security to
           ensure that the monitoring plan complies with all Federal and State monitoring
           guidelines. The monitoring plan should include a subgrantee monitoring
           schedule with on-site and desk monitoring for all SHSP and UASI subgrantees.




www.oig.dhs.gov                                   5                                       OIG-13-43
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Management Comments and OIG Analysis

           FEMA and the State’s Response to Recommendation #1: FEMA and the State
           concurred with this recommendation. FEMA shall require the State of
           Connecticut’s DESPP DEMHS to develop and implement a subgrantee monitoring
           plan that meets the requirements of 44 CFR § 13.40, Monitoringfandfreportingf
           programfperformance. The Director shall submit to the FEMA GPD a copy of the
           subgrantee monitoring plan and schedule of site visits no later than 90 days after
           the issuance of the OIG final report. Based on the response in appendix C, the
           State is currently in the process of reviewing all grant programs in a total
           program/process review. This review includes the establishment of a detailed
           monitoring plan that addresses on-site visits by DEMHS personnel to subgrantees.
           Additionally, the review will include office-based desk monitoring, as required, of
           subgrantees. The State’s intent is to ensure that funds expended are in full
           compliance with grant requirements and all Federal and State regulations.

           OIG analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 1, which is open and resolved. This recommendation will
           remain open pending confirmation of the submission of the subgrantee
           monitoring plan to FEMA GPD by the State of Connecticut, which includes on-site
           and desk monitoring.

           Timeliness of Grant Fund Obligations

           The SAA did not obligate grant funds timely. For FYs 2008 through 2010, the
           State did not meet the required 45-day obligation for SHSP and UASI grant funds.
           OMB Circular A-133 Compliance Supplement and FEMA’s FYs 2008, 2009, and
           2010 HSGP guidance requires the SAA to obligate 80 percent of funds awarded
           under SHSP and UASI grant programs to local units of government within 45 days
           of receipt of the funds. In addition, FEMA strongly encourages the timely
           obligation of funds from local units of government to other subgrantees. FEMA’s
           grant guidance states, “four requirements must be met to obligate grant funds:

           •	 There must be some action to establish a firm commitment on the part of
              the awarding entity.
           •	 The action must be unconditional on the part of the awarding entity
              (i.e., no contingencies for availability of SAA funds).
           •	 There must be documentary evidence of the commitment.
           •	 The award terms must be communicated to the official grantee.”



www.oig.dhs.gov                                 6                                  	    OIG-13-43
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           The SAA did not meet the grant requirements because of its lengthy approval
           and obligation process. The process begins when DEMHS issues grant application
           packages to subgrantees after it receives the grant award from FEMA in August
           or September. The applicants submit their completed applications, along with all
           attachments and signatures, to the SAA. To work around the need for county
           government structure within the State, DEHMS divided the State into five
           regions. Each region must also submit memorandums of agreement (MOAs)—
           between the region and each municipality within the region—to the SAA with its
           completed application package. (See appendix E for the DEHMS regional map.)

           This process can take days or months to complete. According to SAA and
           regional officials, the MOA process is an ongoing problem. Some regions obtain
           the necessary timely MOAs, while others cannot do so because of the
           procedures of the individual municipalities. Some municipalities meet monthly,
           while others may meet once or twice per year. These differences create a
           problem for the regions because they cannot submit their completed application
           without the signed MOAs from all municipalities.

           The SAA receives the grant award from FEMA and sends initial grant award
           letters to subgrantees for their review and approval. As with the MOA process,
           the subgrantees must follow their respective review and award processes. Once
           the award letters are reviewed and approved, the subgrantees send their signed
           award letters back to the SAA for final signature. The SAA prohibits subgrantees
           from expending any grant funds until they receive an executed grant award
           (agreement signed by all parties) from the SAA.

           The SAA fully obligated grant funds, on average, about 712 days after the 45-day
           requirement in FY 2008; about 636 days in FY 2009; and about 138 days in
           FY 2010. For example, although the State received grant awards from FEMA on
           September 3, 2008, the Capitol Region Council of Governments did not receive a
           fully executed award until March 2, 2012. To determine the number of days past
           the 45-day requirement, we calculated the number of days between the 46th
           day after FEMA’s award date and the day that the SAA signed the award letter.
           Table 3 provides detailed information regarding each grant award by fiscal year.




www.oig.dhs.gov                                7                                      OIG-13-43
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Table 3. Grant Obligations, FYs 2008 Through 2010

             Grant Award     Award Number          FEMA        Days to Obligate Avg. days past 45-day
                 Year                              Award                                requirement
                2008        2008-GE-T8-0004       9/3/08       279 to 1,276 days          712 days
                2009        2009-SS-T9-0087       8/21/09      203 to 1,026 days          636 days
                2010        2010-SS-T0-0020      8/18/11*       74 to 302 days            138 days
           *FEMA issued a grant adjustment notice on August 18, 2011, to reobligate the FY 2010 grant
           award because of a vendor number issue. FEMA’s initial award date was September 17, 2010.
           We used FEMA’s grant adjustment notification date for analysis purposes.
           Source: DHS OIG, compiled from FEMA and SAA source documents.

           For FY 2010, the SAA could not access the grant in FEMA’s system and did not
           make subawards until the grant was reobligated in August 2011. Additionally,
           the SAA subgrantees cannot expend grant funds until the SAA receives a fully
           executed grant award and establishes a cost center in the State’s accounting
           system. SAA officials acknowledged that they missed the 45-day requirement,
           but do not believe that they could ever meet it because of their processes and
           the complexities of the “home rule State.”

           The SAA’s lengthy obligation process resulted in a large percentage of SHSP and
           UASI grant funds remaining unused within the 3-year performance period,
           requiring the SAA to request grant extensions from FEMA or risk losing the
           funds. Table 4 illustrates the percentage of grant awards as of June 13, 2012,
           that the SAA had not drawn down for grants awarded during FYs 2008–2010.

           Table 4. Connecticut Homeland Security Grant Program Drawdowns as of
           July 2012
             Grant        Date of       Total Grant         Total            Undrawn        Percentage
              Year     FEMA Award          Award         Drawdowns           Balance         Undrawn
              2008        9/3/08        $14,875,427      $10,857,972        $4,017,455         27%
              2009       8/21/09        $15,630,488      $3,062,223        $12,568,265         80%
              2010       8/18/11*       $14,954,871       $401,698         $14,553,173         97%
           *FEMA issued a grant adjustment notice on August 18, 2011, to reobligate the FY 2010 grant
           award because of a vendor number issue. FEMA’s initial award date was September 17, 2010.
           We used FEMA’s grant adjustment notification date for analysis purposes.
           Source: DHS OIG, compiled from FEMA and SAA source documents.

           Updating the obligation process would make it more efficient and less time-
           consuming for the SAA to obligate grant awards to subgrantees. It would also
           help the SAA draw down funds in a more timely manner.




www.oig.dhs.gov                                      8                                            OIG-13-43
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation:

           We recommend that the Assistant Administrator, Grant Programs Directorate:

           Recommendation #2:

           Require the Connecticut Department of Emergency Services and Public
           Protection’s Division of Emergency Management and Homeland Security to
           review and update its obligation and approval process to identify ways to
           shorten the time needed to meet grant requirements.

           Management Comments and OIG Analysis

           FEMA and the State’s Response to Recommendation #2: FEMA and the State
           concurred with this recommendation. FEMA shall require the Director of
           Connecticut’s DESPP DEMHS to assess and streamline (where possible) processes
           and procedures for obligating funds to subgrantees. The Director shall report to
           GPD the results of this assessment and potential steps to be taken to expedite
           the obligation of funds to subgrantees no later than 90 days after the issuance of
           this report.

           As previously noted, the State is currently reviewing all grant programs in a total
           program/process review. In its response, included as appendix C, the State
           noted that timeliness in the obligation of funds is a top priority. The State
           acknowledges that the approval process needs to be efficient, streamlined, and
           less time consuming. Although the State noted that it has made progress in the
           timely obligation of funds, it also noted that the standard of 45 days established
           by OMB and FEMA to obligate funds under SHSP and UASI grant programs are
           ideally designed for States with county governments. Furthermore, the State
           noted that Connecticut is one of only two States that do not have county
           governments. As a result, the State deals directly with 170 separate
           municipalities and two Tribal Nations, which directly affects its ability to attain
           the standard.

           OIG analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 2, which is open and resolved. This recommendation will
           remain open pending confirmation of the report to GPD of the results of the
           assessment and potential steps to be taken to expedite the obligation of funds to
           the subgrantees.



www.oig.dhs.gov                                 9                                        OIG-13-43
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The purpose of this audit was to determine whether the State of Connecticut distributed
   and spent SHSP and UASI grant funds strategically, effectively, and in compliance with
   laws, regulations, and guidance. We also addressed the extent to which the funds
   awarded enhanced the State’s ability to prevent, prepare for, protect against, and
   respond to natural disasters, acts of terrorism, and other manmade disasters. The audit
   identified problems and solutions that will assist FEMA and the State in improving the
   Nation’s ability to prevent and respond to all hazards on a local and statewide level.

   Together, the entire HSGP and its five interrelated grant programs (see table 5) fund a
   range of preparedness activities, including planning, organization, equipment purchase,
   training, exercises, and management and administration costs. However, for compliance,
   we reviewed only SHSP and UASI funding, and equipment and programs supported by
   the grant funding. Appendix F provides additional information on these grant programs.

   Table 5. State of Connecticut Homeland Security Grant Program Awards for FYs 2008
   Through 2010
                 State of Connecticut’s Homeland Security Grant Program Awards                 f
                                     FYs 2008 Through FY 2010                                  f
                                                                                               f
                                                    Grant Program Amounts
                                                                                               f
         Funded Activity              2008            2009           2010          Totals
                                                                                               f
               SHSP               $10,380,000      $9,545,500     $8,894,442     $28,819,942
                                                                                               f
               UASI                $3,964,000      $5,554,400     $5,564,404     $15,082,804   f
            Subtotals             $14,344,000     $15,099,900    $14,458,846     $43,902,746   f
     Citizens Corps Program         $210,206        $209,367       $178,606       $598,179     f
      Metropolitan Medical                                                                     f
        Response System             $321,221        $321,221       $317,419       $959,861     f
               Total              $14,875,427     $15,630,488    $14,954,871     $45,460,786   f
   Source: DHS OIG, compiled from FEMA source documents.

   The audit methodology included interviews with FEMA representatives as well as work
   at the SAA, the five regions, and various subgrantee locations. To achieve our audit
   objective, we analyzed data, reviewed documentation, and interviewed key State and

www.oig.dhs.gov                                    10                                              OIG-13-43
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   local officials directly involved in State HSGP management and administration.
   In addition to the SAA, we visited the following 12 subgrantee organizations:

   UASI Recipients

       •   Region 1 – City of Bridgeport and its fiduciary (City of Stamford)
       •   Region 3 – City of Hartford

   Regional Offices

       •   Region 1 – City of Bridgeport
       •   Region 2 – Connecticut River Estuary Regional Planning Agency
       •   Region 3 – City of Hartford
       •   Region 4 – Windham Region Council of Governments
       •   Region 5 – Council of Governments of Central Naugatuck Valley

   State Agencies

       •   State Capitol Police Department
       •   Department of Emergency Services and Public Protection

   Local Jurisdictions and First Responders

       •   Capital Region Council of Governments
       •   Eastern Connecticut State University
       •   University of Connecticut

   To determine the effectiveness of the State’s grant program and compliance with
   requirements, we conducted site visits and held discussions with appropriate officials
   from selected subgrantees, urban areas, and local jurisdictions. We reviewed
   documentation supporting State and subgrantee management of grant funds, including
   expenditures for equipment, training, and exercises. We tested property and payment
   transactions, inspected some of the equipment procured with the grant funds, and
   analyzed the procurement process. In addition, we met with representatives of first
   responder organizations such as fire and police departments to discuss the grant
   process and the benefits the grant funds have brought to their organization and
   communities. These key management processes included the following:

       •   Threat, capability, and needs assessment
       •   State strategic plans

www.oig.dhs.gov                                 11                                  OIG-13-43
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


       •   Training and exercise
       •   Grant application preparation and submission
       •   Grant funds allocation
       •   Grant expenditure and reporting
       •   Grant monitoring

   We reviewed documentation related to 72 grants awarded to subgrantees from
   FYs 2008 to 2010. We relied on the grant award documents provided by the State and
   tested these documents for completeness. We also reviewed a judgmental sample of
   the grant expenditures, representing approximately 13 percent of the dollar value
   awarded for the FYs 2008–2010 grants, to determine whether the expenditures were
   supported and allowable under the grants. We judgmentally chose specific equipment
   items to observe at local sites. We did not test for completeness for FY 2010, since that
   year’s subgrants were in the award process.

   We relied on computer-processed data provided by the State for information regarding
   its drawdowns from FYs 2008–2010 grant awards. We did not perform any internal
   control testing of this information, as it was not the basis for our report findings and
   recommendations. We judgmentally selected a sample of 24 purchases and verified the
   accuracy of the information obtained from the computer system.

   We conducted this performance audit between March and July 2012 pursuant to the
   InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                               12                                       OIG-13-43
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                            U.S. l>cparlmcnC Qr Ilomdand SC(lIricy
                                                                                       W3Shinscon. DC   ~ 72




                                                   JAN 1 7 1013

              MEMORANDUM FOR:               Annc L. Richards
                                            Assistant Inspector General for Audits
                                            Offi ce of Inspector General

              FROM:                         David J. Kaurman     ;t; ~
                                            Associate Administrafo r f;-
                                            Policy, Program Analysis and International AfTairs

              SUBJECT:                      Response to OIG Draft Report: Response to Draft Report Connecticul
                                            Mal1agemem o/SHSP and UASI Crilllls Awarded During Fiscal Years
                                            2008 Through 20 J0


              Thank you ror the opportunity to comment on the draft report. The findings in the rcport will be used
              to strengthen the effecti veness and efficiency of how we execute and measure our programs. We
              recognize the need to continue to improve the process, including addressing the recommendations
              raised in this report. Our responses to the recommendations are as follows:

              Recommend a tion #1: We recommcnd that the Assistant Administrator, Grant Programs Directorate
              requjre the Connecticut Department of Emergency Services a nd Public Protection ' s Division of
              Emergency Management and Homeland Security to ensure that the monitoring plan complies with
              all Federal and State mon itoring guidelines. The monitoring plan should include a subgrantee
              monitoring schedule with onsite and desk monitoring for all SHSP and UAS I subgrantces.

              FEMA Response: FEMA concurs with this recommendation. The Assistant Administrator, Grant
              Programs Directorate shall require the Director o f Connecticut Department of Emergency Services
              and Public Protection'S Division of Emergcncy Management and Homeland Security to develop and
              implement a subgrantec monitoring plan that meets the requirements of 44 CFR § 13.40 Monitoring
              and reporting program performance. The Di rector shall submit to GPD a copy of the subgrantce
              monitoring plan and schedule of site visi ts no later than 90 days after the issuance of the OIG final
              report.

              FEMA requests this reco mme ndation be resolved and open pending the submittal of the Connecticut
              subgrantee monitoring plan and schedule to GPD. Estimated Completion Date (ECD): June 28,
              2013.

              Reco mm end a ti on #2 : We recommend that the Assistant Ad ministrator, Grant Programs
              Directorate require the Director o f Connecticut Department of Emergency Services and Pub lic




www.oig.dhs.gov                                              13                                                        OIG-13-43
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




              Protection's Division of Emergency Management and Homeland Security to review and update its
              obligation and approval process to identify ways to shorten the time needed to meet grant
              requirements.

              FEMA RespoDse: FEMA concurs with this recommendation. The Assistant Administrator of the
              Grants Programs Directorate shall require the Director of Connecticut Department of Emergency
              Services and Public Protection' s Division of Emergency Management and Homeland Security to
              assess and streamline (where possible) processes and procedures for obligating funds to subgrantees.
              The Director shall report to GPO the results of this assessment and potential steps to be taken to
              expedite the obligation of funds to the subgrantees no later than 90 days after the issuance of the
              OlG final report.

              FEMA requests this recommendation be resolved and open pending the completion of the corrective
              action. ECD: June 28. 2013.

              Thank you for the work that you and your tearn did to better infonn us throughout this audit. We
              look forward to the final report. Please direct any questions regarding this response to Gary
              McKeon, FEMA's Chief Audit Liaison, at 202-646-1308




www.oig.dhs.gov                                             14                                                       OIG-13-43
                    OFFICE OF INSPECTOR GENERAL
                      Department of Homeland Security


   Appendix C
   State of Connecticut’s Management Comments for the Draft
   Report




www.oig.dhs.gov                   15                          OIG-13-43
                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                                                             - 2-


              Management and Budget (OMB) and the Federal Emerge,\cy Management Agency
              (FEMA) to obligate tunds awarded under ttle State Homeland Security Program (SHSP)
              and Urban Area Secur~y Initiative (UASI) grant programs is ideally designed for states
              that have county govemment. Connecticllt is one of only two states that do nol have
              county government As such, the State of Connecticut must dlreclly deal with 170
              separate municipalities and two Tribal Nat/ons. While this is addressed in the draft
              audit, considerations should be made in the futLore for the unique form and type of
              government that exists in Connecticut as it directly affects the abil~y of the State of
              Connecticut to attain the standard.

                  Please let me know if you have any questions or If you require any additional
                  informalion. I can be reached at 860.256.0810 or via e-mail at willi.m .• hAa@ct. gov.

                  Sincerely,



            ~d~
              Witliam P. Shea
              DeplIty Commissioner
              Deparlment of Emergency Services and Public Protection
              Division of Emergency Management and Ho meland Securily

                  cc:
                  Reuben F. Bradford, Commissionsr DESPP
                  William J. Hackstt, Emergency Management Director, DEMHS
                  Brenda M. Bergeron, Chief of Staff, DEMHS
                  RoseMarie Peshka, Fiscal Manager, DESPP
                  Megan Sopelak, Fiscal Manager, DESPP




                                    25 Sigol/mey Streol, tiro, floor, Hartford, CT 06106
                                        Pilon,,: 860.256.0800 /     FaK: 860.256,0815
                                     An Affirmative Action/ Equal Opportullity Employor




www.oig.dhs.gov                                             16                                             OIG-13-43
                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix D
   Subgrantee SHSP and UASI Grant Obligations
   FY 2008 Subgrantees
                                                                        Date of
                Subgrantee                    Grant       Award         FEMA       Obligation   Days to
                                              Award      Amount         Award        Date       Obligate

    Capitol Region Council of
    Governments                             008ACRGD           $7,500   9/3/2008     3/2/2012      1,276
    Litchfield Hills Council of Elected
    Officials                                008ALHCB          $7,500   9/3/2008    2/15/2012      1,260
    Litchfield Hills Council of Elected
    Officials                                008ALHCA         $40,000   9/3/2008    2/15/2012      1,260
    Windham Region Council of
    Governments                             008AWINB           $7,500   9/3/2008   12/28/2011      1,211
    Department of Energy and
    Environmental Protection                 008ADEPA         $40,000   9/3/2008   11/30/2011      1,183
    Town of Westport                         008A158A          $7,500   9/3/2008    11/8/2011      1,161
    Capitol Region Council of
    Governments                             008ACRGA    $1,091,600      9/3/2008     6/6/2011      1,006
    South Central Regional Council of
    Governments                              008ASCRA         $40,000   9/3/2008    5/24/2011       993
    Capitol Region Council of
    Governments                              008ACRGC      $40,000      9/3/2008   12/30/2010       848
    City of Hartford                         008A064A      $60,000      9/3/2008   12/20/2010       838
    City of Bridgeport                       008A015A   $1,020,600      9/3/2008    12/9/2010       827
    City of New Haven                        008A093A      $30,000      9/3/2008   11/12/2010       800
    Town of Wilton                           008A161A      $60,000      9/3/2008   11/12/2010       800
    Connecticut River Estuary
    Regional Planning Agency                008ACREA     $150,000       9/3/2008   10/29/2010       786
    Department of Public Health             008ADPHA     $276,963       9/3/2008     9/3/2010       730
    Town of Clinton                         008A027A      $60,000       9/3/2008     8/5/2010       701
    Borough of Naugatuck                    008A088A      $60,000       9/3/2008    7/27/2010       692
    Town of Waterford                       008A152A      $60,000       9/3/2008    7/26/2010       691
    Capitol Region Council of
    Governments                             008MCRGA     $321,221       9/3/2008     6/9/2010       644
    University of Connecticut                008AUCTA     $14,797       9/3/2008     2/4/2010       519
    Department of Emergency
    Services & Public Protection             008ADPSA        $221,370   9/3/2008     2/4/2010       519
    University of Connecticut Health
    Center                                  008AUCHA           $5,008   9/3/2008    1/22/2010       506
    Western Connecticut State
    University                              008AWCSA           $5,761   9/3/2008    1/22/2010       506


www.oig.dhs.gov                                         17                                         OIG-13-43
                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


    Southern Connecticut State
    University                               008ASCSA          $7,518    9/3/2008    1/22/2010       506
    Council of Governments of
    Central Naugatuck Valley                008ACNVA         $935,100    9/3/2008    1/22/2010       506
    State Capitol Police Department   008ACAPA         $7,734    9/3/2008            1/19/2010       503
    Eastern Connecticut State
    University                         008AECSA        $6,012    9/3/2008            1/13/2010       497
    Windham Region Council of
    Governments                       008AWINA      $951,700     9/3/2008            9/30/2009       392
    City of Stamford                  008U135A $1,937,495        9/3/2008             6/9/2009       279
    Capitol Region Council of
    Governments                       008UCRGA $1,967,045        9/3/2008             6/9/2009       279
   Source: DHS OIG, compiled from FEMA and SAA source documents.



   FY 2009 Subgrantees
                                                                        Date of
               Subgrantee                    Grant       Award           FEMA       Obligation   Days to
                                             Award      Amount          Award         Date       Obligate

    Town of Westport                        009A158B         $16,373    8/21/2009    6/12/2012      1,026
    City of New Haven                       009A093A           $834     8/21/2009    3/14/2012        936
    Windham Region Council of
    Governments                             009AWINB          $5,000    8/21/2009     3/6/2012       928
    Capitol Region Council of
    Governments                             009ACRGD          $5,000    8/21/2009     3/2/2012       924
    Litchfield Hills Council of Elected
    Officials                               009ALHCB          $5,000    8/21/2009    2/15/2012       908
    Litchfield Hills Council of Elected
    Officials                               009ALHCA         $40,000    8/21/2009    2/15/2012       908
    City of Hartford                        009A064B         $31,772    8/21/2009   12/29/2011       860
    Department of Energy and
    Environmental Protection                009ADEPA         $40,000    8/21/2009   11/30/2011       831
    Town of Westport                        009A158A          $5,000    8/21/2009    11/8/2011       809
    Capitol Region Council of
    Governments                            009MCRGA      $321,221       8/21/2009    11/3/2011       804
    South Central Regional Council
    of Governments                         009ASCRA       $40,000       8/21/2009   10/12/2011       782
    Town of Clinton                        009A027A       $60,000       8/21/2009    7/20/2011       698
    City of Hartford                       009A064A       $60,000       8/21/2009    7/20/2011       698
    Town of Wilton                         009A161A       $60,000       8/21/2009    7/20/2011       698
    Town of Waterford                      009A152A       $60,000       8/21/2009     7/8/2011       686
    Borough of Naugatuck                   009A088A       $60,000       8/21/2009    6/29/2011       677
    Department of Public Health            009ADPHA      $255,000       8/21/2009     6/9/2011       657
    City of Bridgeport                     009A015A      $973,750       8/21/2009    5/31/2011       648


www.oig.dhs.gov                                         18                                          OIG-13-43
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

    Capitol Region Council of
    Governments                     009ACRGC        $40,000    8/21/2009      5/27/2011       644
    Capitol Region Council of
    Governments                     009ACRGB       $914,500    8/21/2009      5/27/2011       644
    Southern Connecticut State
    University                       009ASCSA         $7,572   8/21/2009      5/25/2011       642
    Council of Governments of
    Central Naugatuck Valley        009ACNVA       $698,875    8/21/2009       4/8/2011       595
    Central Connecticut State
    University                       009ACCSA         $6,556   8/21/2009      3/31/2011       587
    Connecticut River of Estuary
    Regional Planning Agency         009ACREA      $851,250    8/21/2009      3/18/2011       574
    Department of Emergency
    Services & Public Protection     009ADPSA      $222,456    8/21/2009      3/11/2011       567
    Eastern Connecticut State
    University                       009AECSA         $6,556   8/21/2009     12/30/2010       496
    University of Connecticut       009AUCTA        $17,804    8/21/2009     12/30/2010       496
    Windham Region Council of
    Governments                     009AWINA       $759,625    8/21/2009     12/30/2010       496
    State Capitol Police Department 009ACAPA          $8,080   8/21/2009     12/16/2010       482
    Capitol Region Council of
    Governments                     009ACRGA $2,705,845        8/21/2009      3/30/2010       221
    City of Stamford                 009A135A $2,765,240       8/21/2009      3/12/2010       203
   Source: DHS OIG compiled from FEMA and SAA source documents



   FY 2010 Subgrantees
                                                                 Date of
              Subgrantee                 Grant       Award        FEMA       Obligation   Days to
                                         Award      Amount       Award         Date       Obligate

    Capitol Region Council of
    Governments                        010MRCGA      $317,419    8/18/2011    6/15/2012       302
    Hartford UASI                       010ACRGB   $2,683,242    8/18/2011    6/15/2012       302
    Western CT State University        010AWCSA         $5,504   8/18/2011    5/18/2012       274
    Department of Public Health        010ADPHA     $297,500     8/18/2011    4/12/2012       238
    Windham Region Council of
    Governments                        010AWINA     $679,625     8/18/2011    1/26/2012       161
    University of Connecticut          010AUCTA      $17,087     8/18/2011    1/13/2012       148
    Southern Connecticut State
    University                          010ASCSA        $7,193   8/18/2011    1/11/2012       146
    State Capitol Police Department     010ACAPA        $7,664   8/18/2011    1/11/2012       146
    Eastern Connecticut State
    University                          010AECSA        $6,228   8/18/2011     1/9/2012       144



www.oig.dhs.gov                                    19                                        OIG-13-43
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


    Council of Governments of
    Central Naugatuck Valley         010ACNVA      $608,875    8/18/2011   10/31/2011     74
    Connecticut River Estuary
    Regional Planning Agency         010ACREA      $827,250    8/18/2011   10/31/2011     74
   Source: DHS OIG, compiled from FEMA and SAA source documents.

   �                              �




www.oig.dhs.gov                                  20                                     OIG-13-43
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix E
   Regional Map of Connecticut
   Connecticut, through DEMHS, designated 169 municipalities and two Native American
   Tribal Nations as local jurisdictions. Although the State has eight distinct counties, there
   are no corresponding government entities that either provide or support public safety
   services. Therefore, DEMHS developed five regions to provide a system of emergency
   management coverage to the State.




   Source: Connecticut DESPP DEMHS





www.oig.dhs.gov                                21                                        OIG-13-43
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix F
   Homeland Security Grant Programs
   The HSGP provides Federal funding to help State and local agencies enhance their
   capabilities to prevent, deter, respond to, and recover from terrorist attacks, major
   disasters, and other emergencies. The HSGP encompasses several interrelated Federal
   grant programs that together fund a range of preparedness activities, including
   planning, organization, equipment purchase, training, and exercises, as well as
   management and administration costs. Programs include the following:

   •	   State Homeland Security Program — Provides financial assistance directly to each of
        the States and territories to prevent, respond to, and recover from acts of terrorism
        and other catastrophic events. The program supports the implementation of the
        State Homeland Security Strategy to address the identified planning, equipment,
        training, and exercise needs.

   •	 Urban Areas Security Initiative — Provides financial assistance to address the
      unique planning, equipment, training, and exercise needs of high-risk urban areas,
      and to assist in building an enhanced and sustainable capacity to prevent, respond
      to, and recover from threats or acts of terrorism and other disasters. Allowable
      costs for the urban areas are consistent with the SHSP. FEMA expends funding
      based on the Urban Area Homeland Security Strategies.

   In addition, the Homeland Security Grant Program includes other interrelated grant
   programs with similar purposes. Depending on the fiscal year, these include the
   following:

   •	   Metropolitan Medical Response System
   •	   Citizen Corps Program
   •	   Operation Stonegarden (beginning in FY 2010)
   �




www.oig.dhs.gov                                22                                 	    OIG-13-43
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix G
   Major Contributors to This Report
   Paul Wood, Audit Director
   LaParacina Williams, Audit Manager
   David DeHaven, Auditor-in-Charge
   Virginia Feliciano, Auditor
   Andrew Herman, Auditor
   Keith Lutgen, Program Analyst
   Katrina Bynes, Referencer




www.oig.dhs.gov                           23                    OIG-13-43
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix H
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   Federal Emergency Management Agency Administrator
   Assistant Administrator, Grants Programs Directorate
   FEMA Audit Liaison
   Grants Program Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             24                             OIG-13-43
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
